Washington, D.C. 20530

September 23, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Sheldon Silver v. United States, et al,
S.Ct. No. 20-60

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 20, 2020. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on September 28, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 28, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0060
SILVER, SHELDON
USA, ET AL.

ANDREW J. M. BENTZ
JONES DAY
51 LOUISIANA AVE., NW
WASHINGTON, DC 20001
MEIR FEDER
JONES DAY
250 VESEY STREET
NEW YORK, NY 10281
212-326-3939
MFEDER@JONESDAY.COM

